HHS/OIG, Audit -"Review of Blue Cross Blue Shield of Florida's Pension Segmentation Requirements for the Period
January 1, 1994, to January 1, 2003,"(A-07-04-00172)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Blue Cross Blue Shield of Florida's Pension Segmentation Requirements for the Period January 1, 1994,
to January 1, 2003," (A-07-04-00172)
February 8, 2005
Complete
Text of Report is available in PDF format (285 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to determine if Blue Cross Blue Shield of Florida (Florida):  (1) implemented our
prior audit recommendation to increase Medicare segment assets by $813,122; and (2) complied with the Medicare contracts
pension segmentation requirements while updating Medicare segment assets.  We found that Florida did not implement
the prior audit recommendation and did not comply with the Medicare contracts pension segmentation requirements while
updating Medicare segment assets.  Florida understated Medicare segment assets by $1,294,606.  We recommended
that Florida increase the Medicare segment pension assets by $1,294,606, implement controls to ensure that audit recommendations
are addressed, and implement controls to ensure that Medicare segment assets are updated in accordance with the Medicare
contract.  Florida agreed with our report findings.